HHS/OIG-Audit--"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of New Mexico, (A-07-97-01199)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of New
Mexico," (A-07-97-01199)
February 4, 1997
Complete Text of Report is available in PDF format
(668 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Blue Cross and Blue Shield of New Mexico (New Mexico)for Plan Years 1986
through 1988. Contributions were not made to the pension trust fund for Plan
Years 1986 and 1988. Accordingly, New Mexico did not fund the pension costs
identifiable with its Medicare segment during this period. As a result, New
Mexico accumulated unfunded pension costs of $31,372 as of January 1, 1989.
New Mexico must separately identify and eliminate this amount from the amortization
components of future pension costs.